Se
I

OCKLE

2311 Douglas Street A : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B plete contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 20-641

LSP TRANSMISSION HOLDINGS, LLC,
Petitioner,
v.

KATIE SIEBEN, DAN M. LIPSCHULTZ,
MATTHEW SCHUERGER, JOHN TUMA,
VALERIE MEANS, STEVE KELLEY, ITC MIDWEST LLC,
NORTHERN STATES POWER COMPANY
d/b/a XCEL ENERGY,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION
FOR RESPONDENTS KATIE SIEBEN, DAN M. LIPSCHULTZ, MATTHEW SCHUERGER,
JOHN TUMA, VALERIE MEANS, AND STEVE KELLEY in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 5195 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 25th day of January, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska & Chi
| RENEE J. GOSS 9
My Comm. Exp. September 5, 2023 x
Notary Public Affiant 40389
